                              CLOSEOUT FOR M-95060026




                                                                                                    .-
        (the ~*icle)in the proposal.

        OIG identified about eighteen lines of similar or closely paraphrased text fiom the Article
in the proposal that had not been offset or referenced to the Article. All the identified similar text
appeared in the methods section of the proposal.

         OIG wrote to the subject requesting an explanation for the observed similar text. The
subject explained that he was using the methodology presented by the Article's authors. He
acknowledged his failure to apply proper "care and thoughtfulness" with his proposal preparation.
He admitted that he failed to make appropriate citations for the three paragraphs that were
significantly similar to the Article's text. He explained that somewhere in the process of preparing
the proposal, he had failed to properly cite this text. He said that, because of a proposal's limited
distribution, he viewed it differently than publications that are widely disseminated. He said
that,"[i]n retrospect, [he felt] that [his] mental distinction between a 'proposal' and a 'publication'
[had] influenced [his] judgment (or lack of it), leading to the oversight." He concluded that
"[slome lessons are learned the hard way; [he knew he had] learned this hard lesson . . . ."

        The subject deviated from accepted practice when he copied text fiom the Article in the
proposal. However, OIG determined in this case the deviation was not sufficiently serious to
proceed to an investigation. Only about 18 lines of text were copied from the Article that were not
offset and referenced to the original source document. The copied text was part of a description of
the methods that the subject planned to use in accomplishing the proposed work. Two other papers
published by one and both of the authors of the Article were acknowledged in the proposal in a
later paragraph as the source of some of the methods to be used by the subject.

         OIG requested that the subject correct the proposal to accurately identifl and attribute the
text or ideas that were derived fiom others' work. The subject sent corrected copies of the relevant




                 .,-   ..


                                         Page 1 of 2
                             CLOSEOUT FOR M-95060026

pages of the proposal to the program officer. OIG verified that the subject had adequately
addressed all the issues related to the copied text and that the corrected pages had been placed in
the program jacket.

       This case was closed and no further action will be taken.

cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                       Page 2 of 2
